9 Cli­

''fir'

ff

/

No.

i - '.yr;

r i\ r: Af]

Suprai:;; Court, U.S.
FILED

APR 0 5 202;
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

TREVON WILEY — PETITIONER
vs.
DARREL VANNOY, WARDEN — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

TREVON WILEY
557602, CYPRESS—3
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTION PRESENTED
This case also involves 2 non-unanimous verdicts leading to the
following question:
Does the Court’s decision in Ramos v. Louisiana, 140 S.Ct. 1390
(2020) applies to cases on state collateral review, where the State follows
the retroactivity framework established in Teague v. Lane, 489 U.S. 288
(1989)?

n

V

LIST OF PARTIES
All parties appear in the cation of the case on the cover page.

\

111

TABLE OF CONTENTS
PAGE NO.
QUESTIONS PRESENTED

.11

LIST OF PARTIES

m

TABLE OF CONTENTS

IV

INDEX TO APPENDICES

v

TABLE OF CITED AUTHORITIES

vi

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

4

1.

Wiley’s non-unanimous convictions violates the dictates of the Sixth
and Fourteenth Amendments to the United States Constitution, this
Court’s holding in Ramos v. Louisiana, and nearly every tenet of
fundamental fairness, substantial justice, due process, equal protection
6
and reasonable doubt.
A.

The Sixth Amendment Demands Unanimity in State and Federal
Trials................................................................................................ 7

B.

Ramos Is Not New Law as Apodaca

had no

Precedential Effect.... 13
17

CONCLUSION

IV

INDEX TO APPENDICES
Appendix
A

Page
Louisiana Supreme Court’s March 23, 2021, Denial of
Post-Conviction Relief

1

B

Fifth Circuit Court of Appeal’s Denial of Post-Conviction
Relief

3

C

Twenty-fourth Judicial District Court’s Denial of PostConviction Relief

5

D

Application for Writ of Certiorari to the Louisiana
Supreme Court

6

E

Application for Supervisory Writ of Review to Fifth
Circuit of Appeal

25

F

Application for Post-Conviction Relief with Memorandum
in Support

49

G

Transcript of Jury Polling Results

64

v

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Andres v. United States, 333 U.S. 740, 68 S.Ct. 880 (1948)

7,15

Apodaca v. Oregon, 406 U.S. 404, 92 S.Ct. 1628 (1971).........

passim

Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348 (2000)

8,16

Brown v. Louisiana, 447 U.S. 323, 100 S.Ct. 2214 (1980)
Descamps v. United States, 570 U.S. 254, 133 S.Ct. 2276 (2013)
Duncan v. Louisiana, 391 U.S. 145, 88 S.Ct. 144 (1968)
Edwards v. Vannoy,

S.Ct.___(2020) (No. 19-5807)

Johnson v. Louisiana, 406 U.S. 356, 92 S.Ct. 1620 (1971)
Maxwell v. Dow, 176 U.S. 581 (1900)
McDonald v. City of Chicago, 130 S.Ct. 3020, 561 U.S. 742 (2010).
Patton v. United States, 281 U.S. 276 (1930)
Ramos v. Louisiana, 140 S.Ct. 1390 (2020).

5
16
8
4,17
8,9,11,15
15
9
15
passim

State v. Wiley, 10-811 (La. App. 5 Cir. 4/26/11); 68 So.3d 583

3

State v. Wiley, 2011-1263 (La. 3/30/12); 85 So.3d 106

3

Teague v. Lane, 489 U.S. 288, 109 S.Ct. 1060 (1989)
Timbs v. Indiana, 139 S.Ct. 682 (2019)
Thompson v. Utah, 170 U.S. 343, 18 S.Ct. 620 (1898)

vi

5,13,17
9
7,14

Williams v. Florida, 399 U.S. 78, 90 S.Ct. 1893 (1970)

8

STATUTES AND RULES
28U.S.C. § 1257(a)

1

Rule 10 of the United States Supreme Court

4

Yll

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner, Trevon Wiley, respectfully petitions for a writ of certiorari
to review the judgment of the Louisiana Supreme Court.
OPINIONS BELOW
The Louisiana Supreme Court’s decision to deny Wiley’s application
for a writ of certiorari is published at 2020-01327 (La. 3/23/21); — So.3d
— 2021 WL 1113550 and appears at Appendix A. The Fifth Circuit Court of
Appeal’s decision is unpublished but appears at Appendix B. The TwentyFourth Judicial District Court’s decision is unpublished but appears at
Appendix C.
JURISDICTION
The Louisiana Supreme Court denied discretionary review of Wiley’s
application for a writ of certiorari on March 23, 2021. The Court’s
jurisdiction is invoked under 28 U.S.C. § 1257(a).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United Sates Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury ... and to have the
assistance of counsel for his defense.
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part:
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
La. C. Cr. P. art. 930.3
If the petitioner is in custody after sentence for conviction for an
offense, relief shall be granted only on the following grounds:
(1) The conviction was obtained in violation of the constitution
of the United States or the state of Louisiana.

2

STATEMENT OF THE CASE
On August 19, 2009, Wiley was convicted by a 10-to-2 verdict of second
degree murder and by an 11-to- l verdict of aggravated burglary. On August
31, 2009, the trial court imposed a life without benefits sentence and a
concurrent, and maximum, thirty-year sentence. On April 26, 2011, the Fifth
Circuit Court of Appeal affirmed Wiley’s conviction but remanded for
resentencing to remove the trial court’s unlawful flat-time stipulation. State
v. Wiley, 10-811 (La. App. 5 Cir. 4/26/11); 68 So.3d 583. On March 30, 2012,
the Louisiana Supreme Court declined to invoke its supervisory jurisdiction.
State v. Wiley, 2011-1263 (La. 3/30/12); 85 So.3d 106.
Wiley filed an application for post-conviction relief and argued that his
non-unanimous jury verdicts violated his Sixth Amendment right to a jury
trial as described and affirmed by the Court in Ramos v. Louisiana, 140 S.Ct.
1390 (2020). On August 3, 2020, the trial court issued a one-page ruling
denying Wiley’s application for post-conviction relief. In fact, the trial court
said the “Ramos decision affects [only] cases not yet final. The Supreme
Court emphasized that ‘the Court’s decision today will invalidate some nonunanimous convictions where the issue is preserved and the case is still on
direct review. ’ The petitioner is not on direct review.” Appendix C, p. 5.

3

In upholding the trial court’s ruling, the appellate court said: “Ramos
v. Louisiana holds that the Sixth Amendment right to a jury trial—as
incorporated against the states by the Fourteenth Amendment—requires a
unanimous verdict to convict a defendant of a serious offense... .To date, the
Louisiana Supreme Court has not held that Ramos v. Louisiana should be
given retroactive application.” Appendix B, p. 3. This instant petition for a
writ of certiorari timely follows.
REASONS FOR GRANTING AND STAYING THE WRIT
On May 4, 2020, the Court granted a petition for a writ of certiorari in
Edwards v. Vannoy,

S.Ct.___(2020) (No. 19-5807) to determine if the

decision in Ramos v. Louisiana, 140 S.Ct. 1390 (2020) applies retroactively
to petitioners whose convictions were final when Ramos was decided. Wiley
respectfully asks the Court to stay this petition pending the resolution of
Edwards v. Vannoy and then dispose of the petition as appropriate in light of
that decision.
Wiley’s matter involves his 2009 felony convictions based on 2 nonunanimous jury verdicts. Wiley’s case is appropriate for review because it
involves a significant unresolved issue of law on collateral cases and because
the Louisiana courts have erroneously interpreted or applied the relevant law.

4

Wiley’s non-unanimous jury verdict should be reversed as Ramos v.
Louisiana did not announce a new rule subject to retroactivity analysis, but
rather clarified and corrected the erroneous reasoning presented in Apodaca v.
Oregon, 406 U.S. 404, 92 S.Ct. 1628, 62 L.Ed.2d 152 (1971). Unanimous
jury verdicts have been the mainstay of the American system of law since the
Founding. Apodaca was an outlier, its peculiar plurality opinion, along with
its utterly repudiated “dual tract” doctrine, did not have any binding effect on
the lower courts. Alternatively, even utilizing retroactivity analysis, the
i

Ramos decision clearly meets the criteria announced in Teague v. Lane, 489
U.S. 288, 109 S.Ct. 1060, 103 L.Ed.2d334 (1989). It represents a watershed
rule that implicates the fundamental fairness and accuracy of criminal
prosecutions. As this honorable Court noted: “It is difficult to envision a
constitutional rule that more fundamentally implicates the fairness of the trial
—the very integrity of the fact-finding process.... It’s purpose, therefore,
clearly requires retroactive application.” Brown v. Louisiana, 447 U.S. 323,
100 S.Ct. 2214, 65 L.Ed.2d 189 (1980). Finally, the State can evince no
cogent basis upon which to rely on the finality of non-unanimous verdicts,
the very establishment of which has always and unabashedly been premised
on racial animus. As this Court said in Ramos: “[I]t is something else entirely

5

to perpetuate something we all know to be wrong only because we fear the
consequences of being right.”
1.

Wiley’s non-unanimous convictions violates the dictates of the
Sixth and Fourteenth Amendments to the United States
Constitution, this Court’s holding in Ramos v. Louisiana, and
nearly every tenet of fundamental fairness, substantial justice,
due process, equal protection and reasonable doubt.
Twelve men and women served on Wiley’s petit jury. Twelve jurors

culled from hundreds of potential jurors who answered the call for service.
The jurors were selected after vigorous questioning by the trial court, the
State, and the Defense. They were educated on the rudiments and fundamentals
of the law during voir dire, the court’s opening remarks and final
instructions. Throughout the process, the parties and the court certified that
each member of the jury was a reasonable person, qualified by their
education, experience and common sense to render judgment for or against
Wiley; and yet, 2 jurors found room to doubt his guilt and the State’s case
against him. When reasonable persons can harbor doubts, those doubts are
likewise reasonable. Thus Wiley was not convicted beyond reasonable
doubt. He was convicted with doubt entrenched in the mind of at least 2
members of his jury with regards to the second degree murder charge and 1
juror concerning the aggravated burglary. Wiley’s non-unanimous jury

6

verdicts, and the rejection of his right to be convicted beyond a reasonable
doubt, violated his Sixth and Fourteenth Amendment due process and equal
protection rights to a jury trial.
A.

The Sixth Amendment Demands Unanimity in State and Federal
Trials.

The Sixth Amendment to the United States Constitution guarantees
unanimity in federal criminal jury trials Andres v. United Slates, 333 U.S.
740, 68 S.Ct. 880, 92 L.Ed. 1055 (1948). “[T]he wise men who framed the
constitution of the United States and the people who approved it were of the
opinion that life and liberty, when involved in criminal prosecutions, would
not be adequately secured except through the unanimous verdict of twelve
jurors.” Thompson v. Utah, 170 U.S. 343, 18 S.Ct. 620, 42 L.Ed. 1061 (1898)
(“It was not for the state, in respect of a crime committed within its limits
while it was a territory, to dispense with that guaranty simply because its
people had reached the conclusion that the truth could be well ascertained,
and the liberty of an accused be as well guarded, by eight as by twelve jurors
in a criminal case.”) The unanimity requirement extends to all issues,
including the character or degree of the crime, guilt and punishment, which
are left to the jury. Id. A jury trial has historically been understood to require
“the truth of every accusation, whether preferred in the shape of indictment,
7

information, or appeal, should afterwards be confirmed by the unanimous
suffrage of twelve of [the defendant’s] equals and neighbors [sic]...”
Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435
(2000); citing Blackstone.
Nevertheless, while the Fourteenth Amendment’s due process clause
guarantees the right to a jury trial, jury unanimity has remained an outlier.
Duncan v. Louisiana, 391 U.S. 145, 88 S.Ct. 144, 20 L.Ed.2d491 (1968).
This honorable Court has said that “the States are free under the Federal
Constitution to try defendants with juries of less than 12 men.” Williams v.
Florida, 399 U.S. 78, 90 S.Ct. 1893, 26 L.Ed.2d446 (1970); citing Johnson
v. Louisiana, 406 U.S. 356, 92 S.Ct. 1620, 32 L.Ed.2d 152 (1971).
The seminal case for non-unanimous jury verdicts is Apodaca v.
Oregon, 406 U.S. 404, 92 S.Ct. 1628, 62 L.Ed.2d 152 (1971). In Apodaca, a
bitterly divided court eschewed the historical context and a nearly unbroken
chain of cases recognizing unanimity, instead “focus[ing] upon the function
served by the jury in contemporary society.” Id., at 410.
£[T]he essential feature of a jury obviously lies in the
interposition between the accused and his accuser of the
commonsense judgment of a group of laymen... ’ A requirement
of unanimity, however, does not materially contribute to the
exercise of this commonsense judgment... .In terms of this
function we perceive no difference between juries required to act
8

unanimously and those permitted to convict or acquit by votes of
10 to two or 11 to one. Requiring unanimity would obviously
produce hung juries in some situations where nonunanimous
juries will convict or acquit. But in either case, the interest of
the defendant in having the judgment of his peers interposed
between himself and the officers of the State who prosecute mid
judge him is equally well served.
Apodacav. Oregon, at 410-11.
The Apodaca Court’s ruling is a peculiar aberration. First, 8 members
of the Apodaca Court held that the Sixth Amendment applied equally to the
states and the federal government. Johnson v. Louisiana, 406 U.S., at 395-96.
Only Justice Powell rejected the prior precedent and cast the decisive vote
to conclude that the Sixth Amendment did not apply to the states in the same
way it applied to the federal government. Second, this Court’s due process
jurisprudence has long held that the Sixth Amendment’s jury trial guarantee
applies to the states and that, where a Bill of Rights protection is incorporated
in the Fourteenth Amendment, “there is no daylight between the federal and
state conduct it prohibits or requires.” Timbsv. Indiana, 139 S.Ct. 682, 203
L.Ed.2d 11 (2019). This Court has also said it would be “incongruous” to
apply different standards “depending on whether the claim was asserted in a
state or federal court.” McDonald v. City of Chicago, 130 S.Ct. 3020, 561

9

U.S. 742, 177 L.Ed.2d 894 (2010). Consequently, this Court’s own authority
undermined Justice Powell’s deciding vote and rationale in Apodaca.
That the right to trial by jury is fundamental and applies to the states
through the Fourteenth Amendment’s due process clause is undisputed. It is
also settled Supreme Court jurisprudence that rights incorporated by the
Fourteenth Amendment received identical treatment by both the states and
the federal government. These inviolable principles were recently reaffirmed
in Ramos v. Lomsianay 140 S.Ct. 1390 (2020).
In Ramos, this honorable Court held that there is no colorable doubt
what the Framer’s of the Constitution had in mind when they enshrined the
right to trial by jury. “Wherever we might look to determine what the term
‘trial by an impartial jury trial’ meant at the time of the Sixth Amendment’s
adoption ... the answer is unmistakable. A jury must reach a unanimous
verdict in order to convict.” Idy at *4. Next the Court held that longstanding
jurisprudence holds that, where an amendment has been held to apply to the
states through the Fourteenth Amendment, the Bill of Rights must be
enforced the same for the federal government and the states, there can be no
“daylight” between the protections of the one and the other:
There can be no question either that the Sixth Amendment’s
unanimity requirement applies to state and federal criminal trials
10

equally. This Court has long explained that the Sixth Amendment
right to a jury trial is “fundamental to the American scheme of
justice” and incorporated against the States under the Fourteenth
Amendment. This Court has long explained, too, that incorporated
provisions of the Bill of Rights bear the same content when
asserted against States as they do when asserted against the
federal government. So, if the Sixth Amendment’s right to a jury
trial requires a unanimous verdict to support a conviction in
federal court, it requires no less in state court.
Ramos v. Louisiana, at *7.
Having determined that the right by trial implicates a unanimous jury
verdict and that the right applies with equal force to the federal government
and the states, the Ramos Court spent the bulk of its opinion evaluating the
Apodaca opinion. Apodaca was heard in tandem with Johnson v. Louisiana,
and both cases challenged non-unanimous jury statutes. Apodaca was a split
decision; even so, all 9 Justices found that the Sixth Amendment originally
required unanimity. However, 4 of the Justices believed that “unanimity’s
costs outweighjed] its benefits in the modem era.” Therefore, they were
willing to uphold non-unanimous verdicts in state courts. Justice Powell cast
the deciding vote. Failing to align with either side’s version, he argued that
the Sixth Amendment required unanimous jury verdicts only in federal courts.
This so-called “dual track” theory holds that different standards of

11

constitutional protections apply to the state and federal governments and, as
such, they must be evaluated differently.
However, as the Court made clear in Ramos, Justice Powell’s dual
track argument had already been rejected: “The Court had already, nearly a
decade earlier, rejected the notion that the Fourteenth Amendment applies to
the States only a watered-down, subjective version of the individual
guarantees of the Bill of Rights.” Ramos, supra at *9 (internal quotations
omitted). Consequently, the Ramos majority was thus faced with a dilemma.
Apodaca should have precedential effects, but the decision was deeply
flawed because: (a) all the justices agreed that the Sixth Amendment
provided a right to a unanimous jury verdict; (b) no majority of the Court
authored the controlling opinion; and (c) Justice Powell’s opinion—which
gave the majority its votes—was based upon grounds that were already
invalid at the time of the opinion:
[N]ot even Louisianatri.es to suggest that Apodoca supplies a
governing precedent. Remember, Justice Powell agreed that the
Sixth Amendment requires a unanimous verdict to convict, so he
would have no objection to that aspect of our holding today.
Justice Powell reached a different result only by relying on a
dual-track theory of incorporation that a majority of the Court
had already rejected [and continues to reject].
Id., at p. *16 (emphasis added).

12

Moreover, even if the Court “accepted the premise that Apodaca
established a precedent, no one on the Court today is prepared to say it was
rightly decided, and stare decisis isn’t supposed to be the art of
methodically ignoring what everyone knows to be true.” Id., at p. *20.
Properly read, Ramos does not overrule Apodaca-, it merely recognized
that the decision never had precedential effect. It was never the law of the
land and any non-unanimous conviction upheld under its premises is
phantasmic. That the Sixth Amendment provides for unanimous jury
verdicts is not now—and never has been—a real dispute. In Apodaca, all of
the Justices agreed that unanimity was required at the Founding. 4 Justices,
however, would do away with it as “too burdensome.” A fifth, Justice
Powell, would argue that the right to a unanimous jury verdict was essential
to federal trials but did not apply to the states through the Fourteenth
Amendment. As the Ramos Court noted, Justice Powell’s view of “dual­
track theory of incorporation was already foreclosed in 1972.”
B.

Ramos Is Not New Law as Apodaca

had no

Precedential Effect.

The Ramos majority is clear—the decision is not retroactive. That is,
the Court only heard the limited issue of whether the Sixth Amendment’s
right to unanimity applies to the states: “[Tjhe Teague question [is not] even

13

before us. Whether the right to jury unanimity applies to cases on collateral
review is a question for a future case where the parties will have a chance to
brief the issue and we will benefit from their adversarial presentation.”
Ramos, supra at *12. In Ramos, this honorable Court pointed out that the
right to unanimous jury verdicts originated in Fourteenth century England
and had been practiced for four-hundred years by the time of the Founding.
The right was widely practiced both before mid after the Revolution and has
remained a stalwart feature of constitutional jurisprudence ever since. The
Apodaca decision, the sole support for non-unanimous verdicts, was flawed,
fractured, and Justice Powell’s deciding vote violated decades of Supreme
Court precedent in its attempt to revive the ersatz “dual tract” doctrine. Here
the Court made a strong argument that Apodaca was not worth the paper it
was written on and that it never had precedential authority.
This honorable Supreme Court has issued no fewer than fourteen
opinions holding that the Sixth Amendment requires unanimous verdicts to
convict. In 1898, the Court held that “life and liberty, when involved in
criminal prosecutions, would not be adequately secured except through the
unanimous verdict of twelve jurors.” Thompson v. Utah, 170 U.S. 343, 18
S.Ct. 620. The Court followed in short order with several similar opinions.

14

See generally, Maxwell v. Dow, 176 U.S. 581, 586 (1900); Patton v. United
States, 281 U.S. 276, 288 (1930). In 1942, again emphasizing the Sixth
Amendment’s demand for“[u]nanimity injury verdicts,” the Court extended
the requirement “upon both guilt and whether the punishment of death
should be imposed.” Andres, supra.
Even in Apodaca v. Oregon a majority of the Court agreed that the
Sixth Amendment requires jury unanimity to convict. Justice Powell
accepted the “unbroken line of cases reaching back into the late 1800’s”
holding that, under the Sixth Amendment, “unanimity is one of the
indispensable features of federal jury trial[s].” Johnson, supra at 369.
Justice Stewart, writing for 3 Justices, also concluded that “the Sixth
Amendment’s guarantee of trial by jury embraces a guarantee that the
verdict of the jury must be unanimous.” Apodaca, supra at 414-15. Justice
Douglas similarly maintained that “the federal Constitution re quire [s] a
unanimous jury in all criminal cases.” Johnson, supra at 382.
Since Apodaca, this Court has continued to recognize that the Sixth
Amendment requires that “the truth of every accusation ... be confirmed by
the unanimous suffrage of twelve of [a defendant’s] equals and neighbors”

and “contemplates that a jury ... [will find the essential facts] unanimously
15

and beyond a reasonable doubt.” Apprendi, supra at 477; Descamps v.
United States, 570 U.S. 254, 133 S.Ct. 2276, 186 L.Ed.2d438 (2013).
A close reading of Ramos suggests that in attempting to circumscribe
the Court’s previous authority, the Apodaca Court in general (and Justice
Powell in particular) rendered an opinion without precedential authority. As
this Court noted in Ramos, Justice Powell “agreed that the Sixth Amendment
requires a unanimous verdict to convict.” Ramos, supra at *16. This is
uncontested. In voting with the majority, however, Justice Powell relied
upon the “dual-track theory,” an interpretation of law that was, and
continues to be, invalid. 1 Justice cannot overrule precedent:
It is usually a judicial decision’s reasoning—its ratio decidendi
—that allows it to have life and effect in the disposition of
future cases. As this Court has repeatedly explained in the
context of summary affirmances, “unexplicated” decisions may
csettl[e] the issues for parties, [but they are] not to be read as a
renunciation by this Court of doctrines previously announced in
our opinions.” Much the same may be said here. Apodaca’s
judgment line resolved that case for the parties in that case. It is
binding in that sense. But stripped from any reasoning, its
judgment alone cannot be read to repudiate this Court’s repeated
pre-existing teachings on the Sixth and Fourteenth Amendments.
Id., atp. *“24.
Put another way, since all 9 Justices recognized the requirement of
unanimity at the time of the Framing and since Justice Powell’s majority-

16

deciding vote sought to resurrect the previously-rejected theory of divergent
construction of constitutional principles at the state and federal level, the
Apodaca ruling was valid only in the case before the Court: “[Stripped
from any reasoning, its judgment alone cannot be read to repudiate this
Court’s repeated pre-existing teachings on the Sixth and Fourteenth
Amendments.” Id Accordingly, the Teague analysis is not, strictly speaking
required, as the Sixth Amendment does—and always has—barred the non­
un animous verdicts found acceptable in only 2 jurisdictions in the nation—
Louisiana and Oregon. Accordingly, Wiley is entitled to the reversal of his
convictions.
CONCLUSION
For the foregoing reasons Wiley’s petition for a writ of certiorari
should be granted and held in abeyance pending this Court’s decision in
Edwards v. Vannoy,

S.Ct.___(2020) (No. 19-5807) and then be

disposed of as appropriate in light of that decision.
Respectfully submitted,
•Om

Trevon Wiley

f-

Date: April 5, 2021
17

